C'OCKLE

2311 Douglas Street CA L eva l B rie fs E-Mail Address:
Omaha, Nebraska 68102-1214 & Eat. i9ay contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No.

STEVIE ENGLAND,
Petitioner,
v.
DEEDRA HART, WARDEN,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 7273 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 14th day of January, 2021.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL MOTARY-State of Nebraska é Chk
i RENEE J. GOSS 0. ( deed ,
My Comm. Exp. September 5, 2023

       

Affiant 40486

 

Notary Public
